HHS/OIG, Audit -"Review of Colorado's Accounts Receivable System for Medicaid Provider Overpayments,"(A-07-04-03049)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Colorado's Accounts Receivable System for Medicaid Provider Overpayments," (A-07-04-03049)
July 8, 2004
Complete
Text of Report is available in PDF format (219 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the State agency reported Medicaid provider overpayments to the Centers
for Medicare and Medicaid Services in accordance with Federal regulations. The State agency's policies and procedures
were not sufficient to ensure the timely reporting of all overpayments.  As a result, the State agency delayed returning
the Federal share of identified overpayments totaling $469,756.  Of that amount, the State agency had not yet reported
or returned to the Federal government $334,698 as of February 11, 2004.  We recommended that the State agency (1)
ensure that the Federal share of overpayments totaling $334,698 is returned to the Federal government as soon as possible,
and (2) strengthen policies and procedures to ensure all overpayments are reported in accordance with Federal regulations.  The
State agency agreed with our findings and recommendations.